UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




               Audit of the
      Timeliness of Personnel Actions


                Report No. OIG-AMR-42-04-02




                                              August 2004
INSPECTOR GENERAL




      NATIONAL LABOR RELATIONS BOARD
                       WASHINGTON, DC 20570

August 20, 2004

I hereby submit an Audit of the Timeliness of Personnel Actions, Report No. OIG-
AMR-42-04-02. This audit was conducted to determine the length of time to
process various personnel actions.

The Agency processed 8,685 personnel actions with an effective date during
Fiscal Year (FY) 2003. Consistent with the Agency’s organization, most actions
were for Office of General Counsel employees in the field. The majority of the
actions were for pay adjustments and awards. About 33 percent of the actions
were initiated by a requesting office; the remaining actions were generated by
the Federal Personnel and Payroll System (FPPS) and the Human Resources
Branch (Human Resources).

Generally, Human Resources completed personnel actions within the overall
timeframe set forth in Agency guidance. The guidance sets normal timeframes
to initiate, authorize, concur, and approve the action. The timeframe for
actions, excluding recruitments, is 22 days from the date initiated to the date
processed in FPPS. Most actions were completed within 22 days. Pay
adjustments, which accounted for almost half of the actions reviewed, were
usually completed on same day. Routine actions, such as individual cash or
time-off awards, were usually completed in less than 10 days.

The personnel actions that were not completed within 22 days, primarily
related to promotions and suspensions, took significantly longer for reasons
involving both the requesting office and Human Resources. These actions were
initiated on average about 27 days before the effective date, resulting in a
completion time that exceeded 22 days even though the actions were processed
in a timely manner.

In a few instances, Human Resources did not process actions in a timely
manner. At times personnel actions were completed so late that some
employee paychecks were affected. As a result, five promotions, three quality
step increases, and three individual cash awards were delayed, and the
employee needed to receive pay on a retroactive basis. Some personnel actions
with a "not to exceed" date were not terminated in a timely manner, resulting in
overpayments to employees.

The recruitment actions, excluded from the 22-day timeframe, were subject to
other goals. In May 2004, the U.S Office of Personnel Management asked
agencies to begin implementation of a 45-day model for Federal hiring. The
model covers the time from the close of a vacancy announcement to when an
offer is made. Although some data was incomplete, NLRB appeared to meet the
45-day goal during FY 2003. OPM will use this goal to rate agency
performance beginning in the fourth quarter of FY 2004

We inquired whether Human Resources used additional authorities enacted to
expedite the hiring process. The General Accounting Office recently reported
that agencies are making limited use of hiring flexibilities created by Congress
in 2002 to expedite the hiring process. The two flexibilities addressed were
category rating and direct hire authority. Human Resources staff stated
category rating has been a standard operating procedure for about 1 year when
the vacancy announcement is open to all sources. The Agency has not needed
to use the direct hire authority.

Controls related to personnel actions appeared to be adequate, with a few
exceptions. Regional Office personnel actions did not have the proper initiator
or authorizer in a few cases. Human Resources processed some personnel
actions without obtaining the necessary Budget and Security concurrence.
Also, annotated certificates of eligibles bearing the selecting official's signature
were not in some merit vacancy files.

Our recommendations are presented on page 14 of the report. In summary we
recommended that the Director of Human Resources develop additional
controls, as needed, to ensure that personnel actions are properly processed
and documented.

An exit conference was held on July 12, 2004 with representatives of Human
Resources. A draft report was sent to the Human Resources Branch Director
on July 15, 2004 for review and comment. Management generally agreed with
the findings and all but one recommendation.




                                       Jane E. Altenhofen
                                       Inspector General




                                          2
                                    TABLE OF CONTENTS

BACKGROUND ...................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY .....................................2

FINDINGS...........................................................................................3

PERSONNEL ACTION STATISTICS – FY 2003......................................3

TIMELINESS OF PERSONNEL ACTIONS .............................................4

     Actions Initiated by the Requesting Office .....................................4
     Actions Generated by FPPS and Human Resources .......................9
     Recruitment Actions ...................................................................10


BUDGET AND SECURITY CONCURRENCE .......................................11

PROCESSING OF REGIONAL OFFICE PERSONNEL ACTIONS...........12

INITIALS ON THE SF 50....................................................................12

PERSONNEL ACTIONS WITH AN NTE DATE .....................................13

HIRING FLEXIBILITIES.....................................................................13

MANAGEMENT'S COMMENTS AND OIG RESPONSE.........................14

RECOMMENDATIONS ......................................................................14

APPENDIX

     Memorandum from the Director of Administration, Comments on Draft
     Audit Report - "Audit of the Timeliness of Personnel Actions," dated
     August 16, 2004.
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2004 appropriation authorizes 1,952 full-time
equivalents that were located at Headquarters, 52 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $244,073,000 for FY 2004, less an across-the-board
reduction of .59 percent, leaving a net spending ceiling of $242,633,000.

The source of the Office of Personnel Management's (OPM) authority for
personnel management functions and its further delegation to the heads of
Executive Branch agencies is specified in 5 U.S.C. §1104. This statute also
states that OPM shall establish standards that shall apply to the activities of
agencies to which this authority is delegated. The Guide to Processing
Personnel Actions (The Guide) contains OPM's instructions on how to prepare
personnel actions, with which each agency shall comply in accordance with 5
CFR 250.101.

To process personnel actions, the Agency utilizes the National Business
Center's Federal Personnel and Payroll System (FPPS). Personnel actions are
prepared and authorized electronically within FPPS. The progress of personnel
actions can be monitored through the FPPS tracking module.

For most personnel actions, a Request for Personnel Action, Standard Form 52
(SF 52), is used. The SF 52 is prepared by either the requesting office or the
Human Resources Branch (Human Resources), or is automatically generated
by FPPS. After authorization and the concurrence of the Budget Branch
(Budget) and Security Branch (Security), personnel specialists in Human
Resources review the action and prepare it for signature by the individual(s)
with the authority to approve personnel actions. Most personnel actions must
be approved on or before their effective dates unless provided in the Guide.

The Notification of Personnel Action, Standard Form 50 (SF 50), constitutes
official documentation of Federal employment and must be prepared for all
accessions, conversions, separations, and for all corrections and cancellations
of these actions. The SF 50 serves as official notification to the employee and
as documentation of the action for the employee's Official Personnel File (OPF).

To make the Government more competitive in hiring employees, OPM issued a
memorandum on May 6, 2004 that calls for agencies to institute a 45-day
hiring model, from the closing of a vacancy announcement to an agency job
offer. OPM plans to begin scoring agency progress by the end of FY 2004.


                                       1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of this audit was to determine the length of time to process
various personnel actions. Our scope included personnel actions with an
effective date from October 1, 2002 through September 30, 2003.

We interviewed employees in Human Resources to learn the processes for
processing personnel actions. We interviewed employees in Budget, Security,
and the Division of Operations-Management (Operations-Management) to
determine their roles in processing personnel actions. We reviewed the laws
and regulations relevant to personnel actions, such as 5 CFR 250.101,
Standards and Requirements for Agency Personnel Actions. We interviewed
employees and reviewed guidance from OPM, including the Guide. We
reviewed the policies distributed by Human Resources and Operations-
Management related to processing personnel actions. We tested controls to
determine whether employees could obtain improper system access,
transactions were properly authorized and documented, and staff complied
with standard operating procedures.

We obtained from Human Resources a database of personnel actions with an
effective date between October 1, 2002 and September 30, 2003 and computed
statistics for Fiscal Year (FY) 2003. We tested whether any duplicate
transactions were performed in FY 2003.

We selected two statistically valid random samples of 78 items:

   •   Personnel actions initiated by the requester, and
   •   Personnel actions generated by FPPS and the Human Resources Branch.

For each sample, we computed the total time to complete a personnel action,
including corrections, and the time for each participant in the process to
handle the personnel action. For each sample, we also compared the data in
FPPS to the SF 50 in the employee's OPF to determine data accuracy.

We judgmentally selected a sample of 17 recruitment actions to determine the
length of time between when a vacancy was announced and when the vacancy
was filled. We judgmentally selected a sample of 24 actions with a "not to
exceed" (NTE) date, generally used for temporary promotions and hiring
summer students, and determined whether the personnel action was reversed
in a timely manner.

This audit was performed in accordance with generally accepted government
auditing standards during the period of March 2004 through August 2004 at
NLRB Headquarters in Washington, D.C.




                                       2
                                    FINDINGS

Although personnel actions, other than recruitments, were generally completed
within 22 days, they were not always approved before the effective date.
Human Resources did not always receive the requests for personnel actions 2
weeks prior to the effective date. In some cases, personnel actions were
completed late enough to affect employee paychecks. As a result, five
promotions, three quality step increases, and three individual cash awards
were delayed and the employee needed to receive pay on a retroactive basis.

Controls related to FPPS access appeared to be adequate. However, Human
Resources processed some personnel actions without obtaining Budget and
Security concurrence. Regional Office personnel actions did not have the
proper initiator or authorizer in a few cases. Annotated certificates of eligibles
bearing the selecting official's signature were not in some merit vacancy files.


PERSONNEL ACTION STATISTICS – FY 2003

The Agency processed 8,685 personnel actions with an effective date between
October 1, 2002 and September 30, 2003. Most of these actions (89 percent)
were for employees in the Office of General Counsel. About 71 percent involved
employees in the Regional Offices.


                     Personnel Actions By Component



                                 General Counsel -
                                       Field
                                       71%




                             General Counsel -   Board
                               Headquarters       11%
                                   18%




The majority of the personnel actions were for adjustments to pay, including
the two automatic adjustments for FY 2003 and within-grade increases. About
11 percent of all personnel actions were to correct prior personnel actions,
most of the corrections were related to the retroactive locality pay adjustments
processed in April 2003.


                                          3
                            Personnel Actions by Type

           Appointments /
            Separations
                4%                          Other Actions
                                   Awards
                                                9%
                                    19%
         Promotions and
           Extensions
              5%                                     Corrections
                                                        11%




                                   Pay Adjustments
                                        52%




The requesting office initiated approximately 33 percent of personnel actions.
The remainder of the actions were generated by FPPS and Human Resources.


TIMELINESS OF PERSONNEL ACTIONS

The Personnel Branch stated that the Agency goal is to process personnel
actions timely, which they defined as before the effective date. Agency
guidance states that the normal timeframe to achieve this goal is 22 days.
Although personnel actions were generally completed within 22 days, they were
not always approved before the effective date. In some cases, personnel actions
were completed late enough to affect employee paychecks.

During FY 2003, the Agency met the timeframe for the most significant portion
of OPM's 45-day hiring model that OPM will use to rate Agency performance
beginning in the fourth quarter of FY 2004.

Actions Initiated by the Requesting Office

Although personnel actions were generally completed within the 22-day
timeframe, they were not always approved before the effective date. Human
Resources did not always receive the requests for personnel action 2 weeks
prior to the effective date. In some cases, personnel actions were completed
late enough to affect employee paychecks. As a result, five promotions, three
quality step increases, and three individual cash awards were delayed and the
employee needed to receive pay on a retroactive basis.



                                        4
Time to Complete

The Agency on average processed personnel actions within the timeframe set
forth in the FPPS Quick Start Guide distributed by Human Resources. The
guidance set the timeframe to initiate, authorize, concur, and approve the
action at 22 days.

For the 78 personnel actions initiated by the requesting office, the average time
from initiation of the personnel action to completion was about 22 days.

Approximately 72 percent of personnel actions were completed within 3 weeks
of initiation. These results do not include instances in which personnel actions
were cancelled and re-initiated.

                        Personnel Actions Initiated by Requester
                          Time from Initiation to Completion

              30   28

              25

              20
    Actions




                          14      14
              15

              10                                                           8
                                                   6
                                          4                        4
               5
                                                          0

                   1      2       3       4        5      6        7    >7 weeks
                                       Weeks to Process



For the 8 personnel actions that took longer than 7 weeks to complete, the
average time between the initiation of the personnel action and the effective
date was 54 days. The earliest was initiated 137 days before the effective date.
Human Resources received the personnel actions on average 28 days before the
effective date, and 6 of the 8 actions were received prior to the effective date.
Staff in Human Resources stated that completing a personnel action before the
effective date was not relevant to timeliness, because their measure of
timeliness is completion so employees receive the benefit from the personnel
action on their next paycheck. However, even though Human Resources
received the personnel actions on average 4 weeks before the effective date, five
actions were completed untimely. One action was a promotion that was
received by Human Resources 30 days before the effective date, but was not
completed until 30 days after the effective date.




                                          5
The average time to process the personnel actions varied by type of action.

                         Average Days to Complete
                  Personnel Actions Initiated by Requester

                                              Number of     Average Days
Action Type                                    Actions      To Complete
450 – Suspension NTE                              2            86.00
292 – Return To Duty                              2            63.50
702 – Promotion                                   9            57.44
769 – Extension of Promotion NTE                  1            56.00
171 – Excepted Service Appointment NTE            3            43.33
460 – Leave Without Pay NTE                       1            34.00
721 – Reassignment                                2            30.50
781 – Change in Work Schedule                     1            24.00
703 – Promotion NTE                               1            22.00
170 – Excepted Service Appointment                5            21.20
780 – Name Change From                            2            19.50
847 – Group Time-off Award                        2            17.00
892 – Quality Step Increase                       6            10.33
846 – Individual Time-Off Award                  13             9.54
773 – Extension of Leave Without Pay NTE          1             8.00
303 – Retirement – Special Option                 1             7.00
840 – Individual Cash Award                      20             6.75
302 – Retirement – Voluntary                      2             6.00
101 – Career-Conditional Appointment              1             6.00
760 – Extension of Appointment                    2             5.50
841 – Group Cash Award                            1             4.00
    Total                                        78            21.68

Nine personnel action types on average took 22 days or more to complete. In
some situations, a very early initiation by the requesting office contributed to
long processing times. Five of the nine personnel action types were on average
initiated more than 3 weeks before the effective date of the personnel action.
One action was initiated 137 days before the effective date.

The average time to process the personnel actions for each of the steps also
met the guidelines distributed by Human Resources.




                                       6
               Average Days for Processing Personnel Actions
                          Initiated by Requester

                                            Average           Timeframe
       Office                                Days                Days
    Time in Requesting Office                5.44                2–6
    Time in Budget and Security               1.27               1–2
    Time in Human Resources                  14.97                14
       Total Time                            21.68              17 – 22

Fifteen personnel actions in the sample were subsequently corrected. None of
these corrections was the result of personnel actions that negatively affected an
employee's pay.

Receipt of Personnel Actions

The requesting offices were not following the FPPS Quick Start Guide
distributed by Human Resources in the majority of cases. This guidance states
that the requesting office should allow 2 weeks before the effective date to
provide Human Resources time to complete a personnel action. Operations-
Management Memorandum 02-41, Timely Submissions of Requests for
Personnel Actions (SF-52), dated March 1, 2002, applies this guidance to
Regional Office personnel actions.

For the 78 personnel actions initiated by the requesting offices, Human
Resources received only 11 of these (14.1 percent) more than 2 weeks before
the effective date. Human Resources received 45 personnel actions (57.7
percent) after the effective date. Time-off awards and cash awards accounted
for 26 personnel actions received after the effective date. Staff in Human
Resources stated that award actions are usually made effective on the date the
award is initiated, so receiving award actions after the effective date seems
likely. Other types of personnel actions, such as promotions or quality step
increases, should be received earlier, because untimely receipt increases the
probability that a personnel action would not be completed before it adversely
affects employee pay.




                                       7
                          Effective Date versus Personnel Receipt
                 30
                                                            24
       Actions

                 20
                                                                   11
                                               9      8
                 10
                                    4    5                                5
                      3    2    2                                                     3
                                                                              1   1
                  0
                                        Weeks Before / After Effective Date




Approval of Personnel Actions

Human Resources did not approve personnel actions before the effective date
in many cases. Chapter 3 of the Guide states

      Except as explained in Table 3A, no personnel action can be made
      effective prior to the date on which the appointing officer approved
      the action. That approval is documented by the appointing
      officer's pen and ink signature or by an electronic authentication
      in block 50 of the Standard Form 50.

In 65 of the 78 personnel actions reviewed, approval was not obtained by
the effective date. Staff in Human Resources noted that approval of the
personnel action occurs right before the action is completed. The staff
also stated that personnel specialists time their work to complete an
action so that the employee receives the benefit of the action, such as a
promotion, on the first pay date after the effective date.

The staff added that even though they attempt to complete personnel
actions before the effective date, personnel actions could still be timely
even when they are completed after the effective date. They also said
that other reasons for delaying approving an action might exist, such as
a performance appraisal not being received for a promotion.

Table 3A of the Guide lists the personnel actions that do not need to be
completed by the effective date. None of the 65 personnel actions were
exceptions stated in Table 3A of the Guide.




                                               8
Timely Completion of Personnel Actions

Personnel actions that affected pay were not being completed on a timely basis.
Staff in Human Resources defined timely completion of a personnel action as
being completed in time to be reflected on an employee's pay.

Of the 78 personnel actions in our sample, 18 personnel actions (23 percent)
affected pay and were not completed in a timely manner.

       Comparison of Effective Date and Human Resources Receipt

Received by Human Resources                                            Actions
 More than 2 weeks before effective date                                 2
 Up to 2 weeks before effective date                                     3
 After effective date, before last date to timely complete an action     4
 After last date an action can be completed timely                       9

Of the 18 personnel actions, 11 directly affected pay, including 5 promotions, 3
quality step increases, and 3 individual cash awards. Staff in Human
Resources stated that the employee would receive the pay on a retroactive
basis. Nevertheless, employees are adversely affected by the delay caused by
the untimely completion.

The remaining 7 untimely personnel actions did not directly affect pay because
the pay for those cases was driven by the time and attendance, such as leave
without pay and suspensions. However, staff also stated that the lack of a
personnel action creates a fatal error when the pay calculation is done,
necessitating the time and attendance to be forced by the National Business
Center. Completing the personnel action timely serves as a check to ensure
that the time and attendance is correct. Without a corresponding personnel
action, a time and attendance entry may be missing and the omission may not
be detected.

Actions Generated by FPPS and Human Resources

Time to Complete

For the 78 personnel actions generated by FPPS and Human Resources, the
average time from initiation of the personnel action to completion was
approximately 3 days. About 59 percent of personnel actions were completed
on the date of initiation or generation. Personnel actions that affected pay were
completed on a timely basis.




                                         9
                  Days to Complete - Personnel Actions Generated by
                             FPPS and Human Resources

             60 46
   Records




             40
             20                       11
                     0 0 2 4 0 5           1 2 1 0 1 1 0 1 1 1 1

                  0 1 2 3 4 5 6 7 8 9 10 11 12 13 14 15 16 17 18
                                      Days to Complete



The average time to process the personnel actions in the sample varied by type
of personnel action.

                      Average Days to Complete Personnel Actions
                  Initiated by Human Resources or Generated by FPPS
                                    By Action Type

                                                            Average Days
Type of Action                                   Actions     to Complete
881 – FEGLI Change                                  1            18
880 – Change in Tenure Group                        4            12
893 – Within-Grade Increase                         8             8
895 – Locality Payment                             30             4
894 – Pay Adjustment                               35             0
    Total                                          78             3

Seven personnel actions in the sample were subsequently corrected. Five
personnel actions were to correct personnel actions that occurred between the
effective date of the locality pay adjustment and the date the locality pay
adjustment was generated.

Recruitment Actions

During FY 2003, the Agency met the timeframes for the most significant
portion of OPM's 45-day hiring model that OPM will use to rate agency
performance beginning in the fourth quarter of FY 2004.




                                           10
For the 11 hiring actions in our sample that had complete information for
analysis, the average time from closing of the vacancy announcement to the
date the selecting official chose an employee was 43 days. OPM's hiring model
allows for 42 days from the closing date of the vacancy announcement to the
date the selection is made. Because information was unavailable for when the
Agency made an offer, we were not able to evaluate Agency performance
against the full 45-day model.

A disproportionate amount of time was spent to screen applications and to
convene a panel to rate candidates. This took, on average, 22 days as opposed
to the 10 days allotted in the 45-day hiring model.

Staff in Human Resources stated that whether the closing date was a
postmarked date or an "in-hand" date affected the amount of time to complete
a hiring action. All the hiring actions in the sample allowed applications to be
postmarked by the closing date. The staff stated that they generally allow 5
business days for the receipt of postmarked applications, although they prefer
that the closing date be the date of receipt. Therefore, the Agency appeared to
meet the prospective OPM criteria during FY 2003.

Only 6 of 31 vacancy announcements in the FY 2004 posting file maintained by
Human Resources did not use a postmarked date. Human Resources did not
direct the personnel specialists to encourage the use of "received by" dates in
vacancy announcements.

We were unable to determine the date of selection for 5 of the 17 hiring actions
we examined because no certificate of eligibles signed and dated by the
selection official was found in the merit vacancy file. Appendix C of OPM's
Delegated Examining Operations Handbook, Records Retention and Disposition
Schedule, states that the certificate files should contain the annotated
certificate of eligibles from the selecting official.


BUDGET AND SECURITY CONCURRENCE

Four personnel actions initiated by the requesting office did not have a
concurrence from Budget, and one of these also did not have a concurrence
from Security. The FPPS Quick Start Guide distributed by Human Resources
staff states that personnel actions must go through Budget and that all
personnel actions except for awards must go through Security for concurrence.

Staff in Budget stated that they concur on personnel actions to ensure that the
personnel action is acceptable and that they are not surprised by changes in
salaries. Staff in Security stated that they concur on personnel actions to
ensure that they received the appropriate forms and that the forms are



                                       11
complete. If Budget and Security do not receive the personnel actions for
concurrence, they are unable to perform their functions.


PROCESSING OF REGIONAL OFFICE PERSONNEL ACTIONS

Regional Office staff initiated or authorized actions that should have been
processed by Headquarters staff according to protocols issued by Operations-
Management.

Of the 51 Regional Office personnel actions in the sample of actions initiated by
the requesting office, 7 had initiators and 2 had authorizers different from the
protocols. For most of these, a Regional Office employee performed at task
designated for a Headquarters employee, and in one instance FPPS identified
that a different Regional Office employee performed the task.

Staff in Operations-Management stated that in five instances, the protocols
were temporarily amended in response to a quick deadline imposed by Human
Resources for award personnel actions in August 2003. In one instance in
which a different Regional Office employee performed the task, Operations-
Management stated that the correct employee actually performed the task, but
was improperly logged into the system as someone else. The staff
acknowledged that three actions were not initiated or authorized in accordance
with the protocols.


INITIALS ON THE SF 50

SF 50s did not contain the specialist's initials in accordance with Human
Resources' business process documentation in some cases. This
documentation states the Human Resource Specialist should initial by the
Human Resources Director's signature on the SF 50.

Six personnel actions (7.69 percent) in the sample of personnel actions
initiated by the requesting office and five personnel actions (6.41 percent) in
the sample of personnel actions initiated by Human Resources or generated by
FPPS did not have the Human Resources Specialist's initials on the SF 50 in
the employee's OPF. Staff in Human Resources stated that the purpose of the
specialist's initials on the SF 50 is to verify that a final check is performed to
ensure that the SF 50 is correct. Without the initials on the SF 50, no evidence
that this check was performed exists.




                                       12
PERSONNEL ACTIONS WITH AN NTE DATE

The action terminating the personnel action with an NTE date, usually
temporary promotions and hiring summer students, was not completed on a
timely basis in 4 of the 24 personnel actions tested. In two cases, the
untimeliness of the completion caused an overpayment to the employee
because FPPS maintains the previous salary information until the promotion is
terminated. Of these two, one personnel action was initiated after the effective
date, but the other was initiated more than 2 weeks before the effective date.
One employee repaid the overpayment in the following pay period, and the
other has set up an installment plan.

If a person incorrectly received additional pay because of a personnel action not
being completed, the payment would need to be recouped by the Agency. Staff
in Human Resources stated that at the beginning of a temporary personnel
action, the employee receives paperwork specifying the temporary nature of the
promotion, so the employee should be aware that the action ended. The staff
also stated that the action terminating temporary personnel actions such as a
promotion NTE should be submitted at the same time as the NTE action. The
protocols from Operations-Management, however, state that the terminating
action does not need to be initiated at the time that the NTE action is initiated,
because FPPS would generate the transaction. Human Resources, as the entity
responsible for processing personnel actions, should be the final control to
prevent items such as the above from happening.


HIRING FLEXIBILITIES

The General Accounting Office (GAO) Report Additional Collaboration between
OPM and Agencies Is Key to Improved Federal Hiring states that agencies are
making limited use of hiring flexibilities created by Congress in 2002 and
implemented by OPM in 2003 to expedite the hiring process. Examples of
special hiring authorities include category rating, which allows agencies to
select any candidate who ranks as best-qualified instead of being limited to
three candidates, and direct hire authority, which allows managers to bypass
normal job competition when a severe shortage of candidates or a critical hiring
need exists.

Staff in Human Resources stated that they are aware of the new hiring
authorities, including category rating and direct hire authority, and are
utilizing the authorities as appropriate. The staff stated categorical hiring has
been the standard operating procedure for evaluating employee applications
when the vacancy is open to all sources for about 1 year. They noted that the
Agency has had no need for direct hire authority, but would use the authority if
the appropriate opportunity arose.



                                       13
MANAGEMENT'S COMMENTS AND OIG RESPONSE

The Director of Administration provided the official response and generally
agreed with the findings and five of the six recommendations. She disagreed
with our recommendation that Human Resources coordinate with management
to develop controls to ensure that personnel actions follow the proper protocols
before they are completed. The Director noted that since the protocols
identified are internal and in addition to those in FPPS, each Division or Office
is in a better position to monitor and ensure adherence to those controls. We
agree, and since managers accepted the risk of providing access to other
personnel to process these transactions, we removed the recommendation.
Management's comments are presented in their entirety as an appendix to this
report.


                             RECOMMENDATIONS

We recommend that the Director, Human Resources:

   1. Develop procedures to ensure that personnel actions are executed on or
      before the effective date;

   2. Remind Human Resources employees of the need to keep the proper
      documentation such as an annotated certificate of eligibles in the merit
      vacancy files;

   3. Remind personnel specialists to encourage the use of a "received by" date
      in vacancy announcements;

   4. Remind Personnel Specialists to initial the SF-50 to denote evidence of
      their review of personnel actions;

   5. Develop a control to ensure that the termination of an NTE action is
      processed timely.




                                       14
APPENDIX
         UNITED STATES GOVERNMENT
         National Labor Relations Board
         Division of Administration
         Memorandum


                                                 August 16, 2004

TO:       Jane E. Altenhofen
          Inspector General

FROM:     Gloria J. Joseph /s/
          Director of Administration

SUBJECT: Comments on Draft Audit Report – “Audit of the Timeliness of Personnel Actions”

          This is in response to your memorandum dated July 15, 2004, in which you requested
          comments on the draft audit report on the timeliness of personnel actions. In your memo,
          you requested that we also indicate our agreement or disagreement with each of the
          report’s findings and recommendations.

          I would like to note that, in general, the Inspector General’s audit reflects positively on
          the Human Resources Branch’s (HRB) timeliness in processing personnel and payroll
          actions. The audit findings revealed that HRB processed the vast majority of these
          actions in an efficient and timely manner and, by utilizing the FPPS system’s ability to
          track requests for a personnel action (SF-52), it has resulted in prompt and better
          communications to our customers and a very low error rate.

          We have reviewed the report and have the following comments with respect to the
          findings of the report:

          Page 4, Timeliness of Personnel Actions

          While some adjustments were made to the language in the report based on feedback
          provided by staff of HRB at the exit conference, the report still gives the appearance that
          the agency’s “goal” is to process personnel actions within 22 days. The goal is actually
          to process them “timely” which means before the effective date, or at a minimum, before
          the payroll calculation is done for the pay period in which the action is effective.
          Twenty-two days is the normal timeframe that it should take to achieve this goal if
          everyone involved completes his or her portion of the process in a timely manner.


          Our comments regarding the report’s recommendations are as follows:
Page Two
Jane E. Altenhofen



1. Develop procedures to ensure that personnel actions are executed on or before
the effective date.

HRB agrees with this recommendation and has done everything within its control to gain
compliance from requesting offices. As noted in our processing timelines, procedures are
already in place requiring that requesting offices submit personnel actions to HRB two
weeks before the effective date in order to process personnel actions before or on the
effective date.

HRB will consider more serious options for enforcing this requirement and will enlist the
support of the Division Directors and Office Heads.

2. Inform employees of the need to keep the proper documentation such as an
annotated certificate of eligibles in the merit vacancy files.

We agree with this recommendation with one modification. This is HRB’s current policy
and currently a checklist is used to ensure that all documentation is contained in each file.
As noted in the report, all documentation was maintained in 70% of the cases sampled.
Staff will be reminded to ensure that all documentation is included in the files. We
would recommend changing the recommendation to say “remind Human Resources”
employees rather than “inform” them since they have been informed and there is a policy
and procedure in place.

3. Coordinate with management in program offices, Budget, and Security to
develop controls to ensure that personnel actions follow the proper protocols before
they are completed.

We disagree with this recommendation and recommend that it be restated. We believe
appropriate controls have already been developed to make sure that concurrence is
obtained from the Budget and Security branches. As noted in the report’s findings, only
5 of the 8,686 personnel actions processed between October 1, 2002 and September 30,
2003 did not have the required concurrences from Budget and/or Security before being
processed. This is only a fraction of one percent and not a significantly meaningful
deviation. It is indicative of human error rather than of any systemic problem.
Therefore, we believe that adequate policies, procedures, and controls have already been
developed to ensure that Budget and Security concur in a personnel action and we
recommend that “Budget” and “Security” be dropped from this recommendation.

Regarding the “program offices,” we recommend that the term be replaced with
“Operations Management” since there is no evidence in the report to suggest a problem
exists except with those actions received from the Regional Offices. The report’s



                                             2
Page Three
Jane E. Altenhofen



findings cite that 9 of the 51 Regional Office personnel actions sampled were not
approved by the appropriate initiators or authorizers, meaning that 82 percent of the
sampled actions did follow established protocols.

Access in the FPPS system to “initiate” or “approve” personnel actions is provided
through HRB to the individuals in each Division and Office delegated those authorities.
Any initiator or authorizer can initiate or approve a personnel action for the employees
for whom they have been delegated that authority in the FPPS system and the system
recognizes those individuals as initiators or authorizers. However, each Division and
Office has the discretion to establish additional internal procedures that are more
restrictive than the FPPS system access. For example, a Regional Director may be
required to clear certain personnel actions with an Assistant General Counsel in
Operations Management even though both are listed as authorizers in the FPPS system.
Since these controls are internal and in addition to the FPPS system controls, each
Division or Office is in the best position to monitor and ensure adherence to those
controls internally. Therefore, HRB will send a memorandum to Operations
Management sharing the Inspector General’s findings and recommend that they take
appropriate action to ensure that their internal requirements for approval of Field
personnel actions are properly communicated and enforced.

4. Direct personnel specialists to encourage the use of a “received by” date in
vacancy announcements

We would recommend that the word “Direct” be changed to “remind Human Resources
Specialists” or “continue to encourage the use of” since it is already HRB’s policy to
encourage our customers to require in their vacancy announcements that application
materials be received in HRB by the closing date of a vacancy announcement. We will
continue to advise our customers that requiring receipt of applications by the closing date
of a job announcement will expedite the hiring process.

5. Develop controls to ensure that the approval of personnel actions is appropriately
documented in the OPF.

The wording of this recommendation implies that approval is not currently documented
in the OPF. We disagree with this statement since the signature of the Director of Human
Resources on an SF-50, Notification of Personnel Action, denotes documented approval
of a personnel action. None of the personnel actions processed by HRB lacks
documentation of approval, therefore no action is required.




                                             3
Page Four
Jane E. Altenhofen



We believe this recommendation refers to the initials of a Human Resources Specialist on
an SF-50, Notification of Personnel Action, denoting that a Specialist has reviewed a
personnel action before the Director’s signature is affixed. This is an internal procedure
that HRB developed and voluntarily chose to use to document the review process. The
absence of the Specialist’s initials in no way compromises the documentation of approval
of the SF-50. However, since we believe this internal review process is a valuable tool,
HRB will remind its Specialists of the policy to initial the SF-50 to denote evidence of
the Specialists’ review.


6. Develop a control to ensure that the termination of an NTE action is processed
timely.

The Human Resources Branch agrees with this recommendation and will implement a
procedure to ensure this.

Thank you for the opportunity to comment on the draft report. If you have any questions,
please contact me.


cc: The Board
    General Counsel
    Catherine McCoy, Director of Human Resources




                                            4
